2311 Douglas Street

COCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-706

FACEBOOK, INC.,
Petitioner,

Vv.
NIMISH PATEL, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of January, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the Brief of Amicus Curiae Consumer Data Industry Association in
Support of Petitioner in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
REBECCA E, KUEHN
Counsel of Record
ALLEN H. DENSON
HUDSON COOK, LLP
1909 K Street, NW, 4th Floor
Washington, DC 20006
(202) 715-2008
rkuehn@hudco.com

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 3rd day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

aot,  E Elite Qudeaw-h, Cale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39188
SERVICE LIST

Neal Kumar Katyal

HOGAN LOVELLS US LLP
555 Thirteenth Street, NW
Washington, DC 20004

(202) 673-5528
Neal.katyal@hoganlovells.com
Counsel for Petitioner

Ryan David Andrews

EDELSON PC

350 North LaSalle Street, Suite 1400
Chicago, IL 60654

(312) 589-6374
randrews@edelson.com

Counsel for Respondents

Cory L. Andrews

Washington Legal Foundation

2009 Massachusetts Avenue, N.W.

Washington, DC 20036

(202) 588-0302

candrews@wlf.org

Counsel for Amicus Washington Legal Foundation
